  ~AMTRAK
      NATIONAL RA ILROAD
      PASSENGER CORPORATION
                                          Office of Inspector General


Memorandum
To:           Gerald Sokol, Jr.
              Chief Financial Officer
           ~z:r;:J,e d~-~-·_
From:         David R. Warren
              Assistant Inspector General, Audits

Date:          April 4, 2014

Subject:      Engagement Memo - Review of Long-Distance Car Manufacturing
              Contractual Performance (Project No. 008-2014)

The Office of Inspector General is initiating an audit of the company's contract with
CAF USA for the manufacture of 130 long-distance, single-level rail cars. The objective
of this audit is to assess the adequacy of the Mechanical department's project oversight
and administration of contractual requirements for the long-distance rail car purchase
focusing on the areas of cost, schedule, and performance.

During this audit, we plan to interview company personnel, particularly from the
Procurement, Mechanical, and Finance departments, analyze documents associated
with the procurement of the cars, and review contract and invoice files. Requests for
documents will be made as our work progresses. We will work to minimize the impact
by coordinating interviews and observations with staff in advance.

Our work will be performed in accordance with Generally Accepted Government
Auditing Standards. Our interactions with the company will be consistent with P/I2.1.3
which sets forth the relationship between the OIG and the company. In particular,
section 7.0 of the policy discusses coordination between Amtrak officials and the OIG
on audits and evaluations. P/I2.1.3 can be found at
http://wiki.corp.nrpc/ download/attachments/3586/0IG=Relationship+Policy+111101.pdf
?version=l

We request that your office arrange an entrance conference for us with the appropriate
company officials at the earliest possible date. We will keep you advised of the status of
our work and any material changes in our audit objectives.

                       10 G Street, NE, 3W-300, Washington, D.C. 20002
                        202-906- 4600 / Fraud Hotline 800- 468- 5469
Cheryl Chambers will be the Audit Manager for this project and will report to
Matt Simber, Senior Director, Audits. If you have any questions, please contact me
202-906-4742 or by email at David.Warren@amtrakoig.gov, or Matt Simber 215-349-1077
or by email at Matt.5imber@amtrakoig.gov.


cc:   DJ Stadtler, Vice President Operations
      William Herrmann, Managing Deputy General Counsel
      Mario Bergeron, Chief Mechanical Officer
      Paul Vilter, Acting Chief Logistics Officer
      Matthew Gagnon, Senior Director, Business Process Management Controls
      Melantha Paige, Senior Audit Liaison
